<html>
<title> - JUVENILE INTERVENTION PROGRAMS THAT WORK</title>
<body><pre>[Senate Hearing 106-900]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-900

                JUVENILE INTERVENTION PROGRAMS THAT WORK

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON YOUTH VIOLENCE

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

   EXAMINING JUVENILE CRIME PREVENTION AND INTERVENTION FUNDING AND 
    STRATEGIES, FOCUSING ON STATE JUVENILE COURT SYSTEM ASSISTANCE, 
 DETENTION SPACE, ALTERNATIVE INTERVENTION PROGRAMS; AND THE BOYS AND 
                         GIRLS CLUBS OF AMERICA

                               __________

                           SEPTEMBER 28, 1999

                               __________

                          Serial No. J-106-45

                               __________

         Printed for the use of the Committee on the Judiciary


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
69-953                     WASHINGTON : 2001


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                 ______

                     Subcommittee on Youth Violence

                    JEFF SESSIONS, Alabama, Chairman

BOB SMITH, New Hampshire             JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              HERBERT KOHL, Wisconsin

                       Kristi Lee, Chief Counsel

                 Sheryl Walter, Minority Chief Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     1
Biden, Hon. Joseph R., Jr., U.S. Senator from the State of 
  Delaware.......................................................     3

                    CHRONOLOGICAL LIST OF WITNESSES

Panel consisting of Robbie Callaway, senior vice president, Boys 
  and Girls Clubs of America, Rockville, MD; Robert J. Martin, 
  chief probation officer/coordinator, Mobile County Juvenile 
  Court, Mobile, AL; Clyde McGuire, executive director, Boys and 
  Girls Clubs of South Alabama, Inc., Mobile, AL; and Richard 
  Pounsberry, chief of police, Seaford, DE.......................     5

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Callaway, Robbie:
    Testimony....................................................     5
    Prepared statement...........................................     7
        News Article: By Mark E. Vogler, Eagle-Tribune, dated 
          April 9, 1999..........................................    11
Martin, Robert J.:
    Testimony....................................................    13
    Prepared statement...........................................    14
McGuire, Clyde:
    Testimony....................................................    15
    Prepared statement...........................................    17
Pounsberry, Richard:
    Testimony....................................................    18
    Prepared statement...........................................    19

 
                    JUVENILE INTERVENTION PROGRAMS 
                               THAT WORK

                              ----------                              


                      TUESDAY, SEPTEMBER 28, 1999

                               U.S. Senate,
                    Subcommittee on Youth Violence,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:02 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Jeff Sessions 
(chairman of the subcommittee) presiding.
    Also present: Senator Biden.

 OPENING STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM 
                      THE STATE OF ALABAMA

    Senator Sessions. The subcommittee will come to order.
    For the last 3 years, as chairman of the Youth Violence 
Subcommittee, I have advocated the need for the Federal 
Government to assist the State juvenile court system by 
providing much needed money for detention space, alternative 
intervention programs, and other such activities. And I have 
been met sometimes with resistance from those who say the 
answer to juvenile crime is more prevention programs.
    I really am not opposed to prevention programs, but I 
believe many of these programs that work through the juvenile 
court system are indeed the best prevention programs that you 
can have, and indeed we have about $4.2 billion being spent 
through a multitude of different agencies on youth crime 
prevention programs. But I do believe that prevention is good.
    At a hearing before this committee, GAO has reported that 
we did spend $4.2 billion on prevention programs last year. 
Many of those they determined were duplicative or lacked 
coordination. Moreover, in a DOJ-commissioned study, it was 
concluded that most crime prevention funds are being spent 
where they are needed least. That was a Department of Justice 
study very recently.
    So I believe that more attention must be paid by the 
Congress to the programs that we are funding. I also believe 
that we must require any group that receives juvenile crime 
prevention grants to work in coordination with the juvenile 
justice system and each other to make sure that the monies are 
spent effectively and according to an overall plan to deal with 
delinquency.
    I think there is a false myth about the juvenile court 
system, and you will hear from some people today who have been 
involved in it for a long time and I think will make that 
clear. The idea is that they are only for punishment, that the 
juvenile court systems are a punishment system. That was never 
their design. In fact, it was always designed to intervene to 
reduce delinquency and try to turn the lives of young people 
around.
    So I would like to highlight today a prevention/
intervention program that is working. The Boys and Girls Clubs 
of America received $43 million last year from the Federal 
Government, and this committee and Senator Hatch and our 
subcommittee were very supportive of that.
    One of the features of these Boys and Girls Clubs is that 
they are actively involved with local law enforcement and 
prevention through the juvenile court system. So I believe that 
an examination of those programs prove that the best prevention 
programs are those that work with juvenile justice, certainly 
the ones that are most effectively identifying the kids most at 
risk.
    As an example of this coordination, I am proud to highlight 
a partnership between the Boys and Girls Clubs and the juvenile 
court system in Mobile, AL, my hometown. Through the resources 
and efforts of the Boys and Girls Clubs, several very effective 
programs have been implemented to prevent juvenile crime. Two 
detention programs, one for boys and one for girls, and an 
alternative school are now operating. These programs, which 
have enjoyed great success, are a crucial part of this juvenile 
system.
    So I would like to thank Mr. Clyde Martin, the Executive 
Director of the Mobile Boys and Girls Club, and Bob Martin, the 
Chief Juvenile Probation Officer and a friend for many, many 
years, for coming here today to testify about their successful 
partnership.
    Also joining us today is Police Chief Richard Pounsberry, 
from Seaford, DE. Chief Pounsberry has been actively involved 
in another partnership between Boys and Girls Clubs and local 
law enforcement, and we look forward to hearing about the 
successes they have enjoyed.
    We also very much appreciate Robbie Callaway, Vice 
President of the Boys and Girls Clubs of America, for being 
here today. We look forward to hearing from him about the 
national effort of the Boys and Girls Clubs to affect the lives 
of at-risk and troubled youth.
    Indeed, we can do a better job than we are doing. We need 
to, just like a private business does everyday, look at what we 
are doing and see if we can do better with the resources we 
have. And when we have to have it, we need to find additional 
resources.
    Before we get started, I would like to show a video. It 
will take about 10 minutes. I think it will be enlightening to 
us as we examine some of the ways in which we can have 
partnerships between the juvenile court systems and other 
agencies.
    [Videotape shown.]
    Senator Sessions. Well, that was an excellent film. Camp 
Martin, your namesake, Bob Martin; it is good to have you here, 
and I think that does indicate some of the advantages that come 
from creativity, the commitment to improvement and partnership 
between public and private agencies.
    We are glad to have our ranking member, Senator Biden, 
here, and maybe you would like to make some comments, Joe, 
before we get started.

STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR FROM THE 
                       STATE OF DELAWARE

    Senator Biden. Just very briefly, I wish everyone in the 
country, and even more importantly I wish everyone in the 
Congress from both parties, House and Senate, could take the 
time to understand the positive impact of these programs. The 
Boys and Girls Clubs is the most significant.
    I have worked with the Boys and Girls Clubs, as you have, 
for a long time now. I am a big fan. I know what they have done 
in my State. I often have told the story, there was the chief 
of police in Dover, DE, and back when I was writing the first 
crime bill, the so-called Crime Prevention Act, the Clinton 
bill, whatever you want to call it, the bill with 100,000 cops 
in it, it passed and I was really full of myself, happy I got 
it done.
    I went around the State and talked to all the police 
agencies and all the folks in the State, and everybody was real 
happy about the prospect. And I turned to this chief, who, it 
might please you to know, is a very conservative Republican, 
and I said, Chief Smith, what can I do for you, what do you 
need?
    And I expected him to look at me and say, well, what I need 
is, you know, 20 more cops or more equipment, or whatever. He 
said you can build me another Boys and Girls Club in West 
Dover. I said, I beg your pardon? And he took out three-by-five 
cards; he wasn't known any more than I am for his computer 
wizardry. He took out three-by-five cards that he had put 
together in his file in the Dover Police Department, and the 
chief knows this guy.
    And he pointed out to me that since the Boys and Girls Club 
had been built in East Dover, crime had been down 30 percent, 
arrests down 30 percent in that neighborhood, that area, and 
truancy was down 28 percent. So he said, you can build me 
another Boys and Girls Club. That was when I started working 
with Robbie and when a lot of our colleagues wouldn't work on 
whether or not we would spend that prevention money the way I 
thought we should the prevention money in that bill.
    We figured if we make Boys and Girls Clubs, because they 
have wide, wide constituencies--I will conclude on this point. 
One of the good things about the Boys and Girls Clubs and the 
reason why they are the first that I am aware of since I have 
been a Senator--I have been a Senator 27 years. I literally 
wrote into the bill, with the help of my colleagues, a 
provision that Boys and Girls Clubs explicitly would get some 
funding, and there was a method in my madness in doing that.
    There are more Republicans, there are more Democrats, there 
are more CEO's, there are more big-shots in each of our towns 
and cities who are on the boards of Boys and Girls Clubs. And I 
knew when they picked up the phone and called conservative 
Senators like you and others and they said maybe we should 
invest in prevention, you all would say, well, that is not a 
bad idea. The chairman of the board of Pepsi-Cola is calling 
me, or the bishop of the Episcopal Church, or the Baptist 
whatever was calling.
    And it has worked, it has worked. This is working. The 
mother says this is not rocket science. She always talks about, 
you know, the things that are obvious. And Robbie is tired of 
hearing me say this. She says from the time I am a kid, an idle 
mind is the devil's workshop, idle mind is the devil's 
workshop. You give kids nothing to do between 2:30 p.m. and 
dark and I guarantee you they are going to find something to 
do, and a 75-percent shot is going to be something you don't 
like them doing. That is the big thing.
    This is a heck of a program you all have down in your 
State, first-rate, and much, much more extensive than what 
exists in many other parts of the country in dealing with an 
identified clientele that is already in serious trouble, or is 
likely to be.
    I will conclude by saying I think the overwhelming positive 
impact of Boys and Girls Clubs beyond all the statistics is 
simply it gives kids a structured place to be. It is an outfit 
that has serious, serious people in the community invested in 
it. It has private and public sector money now, mostly private 
money. And, lastly, it literally gives kids a place to go.
    I am really pleased, Mr. Chairman, you are holding this 
hearing. I am really pleased we have finally reached a point in 
the Congress where I think we have a consensus on Boys and 
Girls Clubs. And I think if you asked the witnesses today, are 
there other outfits that could do good things, too, I doubt 
whether they will tell you the only prevention facility in all 
of America is Boys and Girls Clubs. I think they might tell you 
there are other avenues, too, and I hope we can get focused on 
it.
    I appreciate your doing this, and I, in a very parochial 
way, welcome my chief here. He and the town got themselves a 
new Boys and Girls Club and I am anxious to hear what he says 
about the impact of that. So thank you very much, Mr. Chairman.
    Senator Sessions. Thank you, Senator Biden, and I 
appreciate your consistent leadership on these issues, and 
crime particularly, for many years. A lot of the good laws, 
when I was a Federal prosecutor, you helped pass and they 
really made a difference. I hope today we will begin to think 
through how to best do prevention, how we can best affect 
positively the lives of kids who are at risk.
    So let me ask our group to step forward, if you would, at 
this time. I think we have you on a clock, but if you finish 
early and want to submit your written statements, that would be 
fine, too. I think the panel has been introduced.
    I think a vote has just started.
    Senator Biden. Do you want me to go and vote and come back 
or do you want us to go together, or how do you want to do it? 
It doesn't matter.
    Senator Sessions. We do have a vote on now and Senator 
Biden is going to go and cast his vote and then he can come 
back and maybe we won't be interrupted.
    Mr. Callaway, it is a delight to have you with us. We are 
indeed impressed with Boys and Girls Clubs nationally, and I 
know you know on a per capita and size, Clyde McGuire's is one 
of the biggest in the country and one of the most successful.
    We would love to hear your remarks at this time.

  PANEL CONSISTING OF ROBBIE CALLAWAY, SENIOR VICE PRESIDENT, 
   BOYS AND GIRLS CLUBS OF AMERICA, ROCKVILLE, MD; ROBERT J. 
  MARTIN, CHIEF PROBATION OFFICER/COORDINATOR, MOBILE COUNTY 
JUVENILE COURT, MOBILE, AL; CLYDE McGUIRE, EXECUTIVE DIRECTOR, 
 BOYS AND GIRLS CLUBS OF SOUTH ALABAMA, INC., MOBILE, AL; AND 
        RICHARD POUNSBERRY, CHIEF OF POLICE, SEAFORD, DE

                  STATEMENT OF ROBBIE CALLAWAY

    Mr. Callaway. Mr. Chairman, it is good to be here with you. 
I am not going to read my statement. I heard the statement 
about the time. I am going to be quick.
    We have over 2,300 Boys and Girls Clubs now in the country, 
serving over three million kids. You know, it is great to have 
Senator Biden here, and Senator Biden has been a longtime 
supporter. We were at about 1,200,000 kids when I met Senator 
Biden; we are now at three million.
    You came in and took over this subcommittee, and I remember 
one of the first meetings I had with you when you were here and 
you talked about Boys and Girls Clubs working. And we talked 
about prevention that works and that is what we have. I am glad 
you brought these gentlemen because these are some of the best 
people we have in the country.
    For the record, we are serving some of the toughest kids in 
the Nation. We have 359 of our clubs that are in public 
housing. We actually now have three clubs in detention centers, 
working with the courts, getting those kids that are in 
detention--instead of putting them further into the system, we 
are bringing them back and putting them into the Boys and Girls 
Clubs.
    Does it work? On September 15, we had a Louis Harris survey 
that was released at our congressional breakfast here on the 
Hill. Some of you were here. And the results of that Lou Harris 
independent survey that they did was 80 percent of the alumni 
that they surveyed said that the club staff helped them to 
understand right from wrong. Sixty-five percent said the club 
was the only place to go after school in their neighborhood, 
and over 50 percent of those surveyed stated that the club 
really saved my life. These are kids that would have gone 
further into the system. They said the Boys and Girls Clubs 
saved their life.
    We have, in Boys and Girls Clubs, a Gang Prevention Through 
Targeted Outreach Program that has been funded by the Office of 
Juvenile Justice, and it has gotten great support from Shea 
Bilchik and the Office of Juvenile Justice. In 1983, we began 
that program. Now, we have expanded that to serve kids from 
gangs.
    The results of that program so far within the Boys and 
Girls Clubs--this is a follow-up study--93 percent of the youth 
participating in that program were not re-involved in the 
juvenile justice system. This is an intervention program that 
you are talking about. Ninety-three percent did not go back 
into the juvenile justice system.
    Senator Sessions. And what kind of program was that? Would 
you repeat that?
    Mr. Callaway. That was an intervention program operated in 
Boys and Girls Clubs.
    Senator Sessions. For kids who had been in trouble?
    Mr. Callaway. Kids who had been involved with either the 
police or the courts, and had been sent to the Boys and Girls 
Clubs as part of either that--not technically sentenced, but 
they basically had been sent to the Boys and Girls Clubs. 
Ninety-three percent were not further involved. Thirty-nine 
percent did better in school after going back, after the courts 
sent them to the Boys and Girls Clubs. You have today Clyde 
McGuire, who has been a leader, and we are looking to expand 
what he does into other Boys and Girls Clubs around the 
country. And we have Bob Martin.
    Let me get through this even a little faster here and talk 
just about a couple kids, read quotes from a couple kids. Our 
Youth of the Year from New Hampshire: ``I didn't have anywhere 
to go or anything to do. I would get into a lot of trouble 
stealing and fighting. I even got arrested. I was then 
introduced to the Boys and Girls Clubs after being arrested. 
Until that moment, I was lost.''
    Let's look at a girl, Liberty Franklin, who was our 
national Youth of the Year, and many of you met her. Counseling 
and safe haven was what drew Franklin to the Holmes County Boys 
and Girls Club. Raised by a single parent, living in a public 
housing community riddled by crime and violence, Franklin found 
little support at home from her two older sisters who had been 
in and out jail for drug abuse. In addition, it is only with 
Franklin's intervention that her mother has been able to stay 
sober for the last 2 years. This girl became our national Youth 
of the Year and is now in college studying to be an 
orthodontist.
    Our Youth of the Year this year is a kid named Martin 
Banda. ``At the time, I had two choices, either become a member 
of the Boys and Girls Club or''--this is in his words--``or 
hang out on the streets of Lemoyne, in public housing. When the 
Boys and Girls Club opened, Lemoyne was at the peak of gangs 
and drugs. It had an extremely bad reputation which had to be 
overcome. I thank the Boys and Girls Club for saving me.''
    One last one and I am going to stop and come back for 
questions. This one is very special, and when you talk to some 
of your colleagues, you talk about a kid in Massachusetts. This 
is from the newspaper. This is not what the Boys and Girls 
Clubs wrote; it is from the local newspaper. ``Ex-Gang Punk Is 
a Teen Role Model. Back in 1995, one of his closest gang pals 
was killed in a shoot-out and Hector's life seemed headed down 
the same dangerous road. Even the Dominican native admits he 
hung around guns, sold marijuana to get money, and was 
considered a hopeless street punk. When he was in the seventh 
grade, he received straight F's. He repeated the eighth grade, 
after missing more than 90 days of school.''
    And Hector was about to be turned over to the State 
Department--you are talking about intervention. He was about to 
be turned over to the State Department of Youth Services after 
being caught shoplifting. But the Lawrence Boys and Girls Club 
turned his life around. A juvenile court judge, a former Boys 
Club member himself, just as some police chiefs are former Boys 
and Girls Club members, gave Hector a huge break, releasing him 
to one of the club's voluntary members.
    Steve Kelly, of the Boys Club, took Hector under his wing, 
encouraging him to pursue his studies as well as basketball. 
Hector repeated the eighth grade, making the honor roll this 
time. He dropped out of school in eighth grade and made the 
honor roll.
    When they talked about Hector, ``He was big in the gangs, 
to the point where we thought we were going to lose him.'' They 
were vying for him; they were vying with the Boys and Girls 
Club for Hector. Our good Boys and Girls Clubs, like the one 
Clyde runs, like the one in Seaford, DE, we will vie with the 
gang members; we will go for those kids, we will intervene.
    Listen to this. ``But now schools like Harvard, Dartmouth 
and Duke are after Hector, and Hector credits the Boys and 
Girls Club for saving his life.'' In Hector's own words, ``If 
it wasn't for them, I could have ended up one of two ways, dead 
or in jail.'' Hector is going to Dartmouth this year.
    Did I make my time? We can go into questions later.
    Senator Sessions. A very good story, and that 93-percent 
rate--I won't say that I am confident that would continue, but 
any time you are approaching anything like that rate, that is 
extraordinary and it does make a difference.
    [The prepared statement of Mr. Callaway follows:]

               Prepared Statement of Mr. Robbie Callaway

    Mr. Chairman and Members of the committee, my name is Robbie 
Callaway and I am Senior Vice President of Boys & Girls Clubs of 
America. I am pleased to be before you today to testify on Boys & Girls 
Clubs of America's role in reducing juvenile crime throughout America.
    Before I begin, however, I want to take a moment to thank the 
United States Senate, and especially the Senate Judiciary Committee for 
helping Boys & Girls Clubs of America reach an additional 1 million 
young people over a 5-year period. Last year alone you helped us 
average 5 new Boys & Girls Clubs a week and over 200,000 new boys and 
girls. The effort has been extraordinarily successful. On behalf of our 
3 million kids, I thank you.

                     Boys & Girls Clubs of America

    Boys & Girls Clubs of America is a national non-profit organization 
currently comprising 2,340 local Boys & Girls Club facilities 
throughout all 50 States, serving over 3 million young people. It is 
the only nationwide, facility-based youth agency with a primary focus 
on disadvantaged young people.
    Among those 2,340 Clubs there are:

  <bullet> 359 Clubs in public housing
  <bullet> 47 Clubs on Native American land
  <bullet> 339 Clubs in schools
  <bullet> and 200 Clubs on military bases worldwide

    Quite literally we are going anywhere where there are kids who need 
our services. We surround our kids with caring adults who become 
positive role models and mentors, and we provide them with a safe 
positive place to go after school, on the weekends, and during the 
summer.
    Boys & Girls Clubs have a profound impact on their communities. We 
hear this from law enforcement officials at every level, from school 
teachers, from probation officers, and from shopkeepers.
    On September 15, 1999, Louis Harris & Associates released the 
results of their independent survey of Boys & Girls Club alumni. The 
results were overwhelming.

  <bullet> 80 percent said that the Club staff helped them to 
        understand right from wrong.
  <bullet> 65 percent said the Club was the only place to go after 
        school in their neighborhood.
  <bullet> Over 50 percent of those surveyed stated that ``* * * the 
        Club really saved my life.''

           Gang Prevention through Targeted Outreach Program

    During the 1980's Boys & Girls Clubs of America successfully 
developed and tested the Delinquency Prevention through Targeted 
Outreach program in response to the dramatic rise of delinquency in 
severely distressed neighborhoods across the country. In 1991, due to 
increased gang related activity, Boys & Girls Clubs of America, 
building upon this success, developed the Gang Prevention through 
Targeted Outreach program to address this growing need. Still a 
successful and important program today, this initiative has 
continuously been funded by the Office of Juvenile Justice and 
Delinquency Prevention, U.S. Department of Justice.
    The Gang Prevention through Targeted Outreach program uses 
effective techniques that direct ``at-risk'' young people to positive 
alternatives. Through a referral network linking local Clubs with 
courts, police, juvenile justice agencies, schools, social service 
agencies and community organizations, as well as through direct 
outreach efforts, young people considered to be ``at-risk'' are 
recruited and mainstreamed into Club programs as a diversion from gang 
activity.
    Young people on the right track do not become involved in costly 
and destructive behavior. They help others, take responsibility for 
their own actions and act as role models to younger children. The Gang 
Prevention through Targeted Outreach program attempts to provide young 
people with exciting alternatives to the destructiveness of gangs, and 
an opportunity to be a valuable asset to the community.

              A. HIGHLIGHTS--YOUTH AT-RISK OF DELINQUENCY

  <bullet> From 1984 to 1990, more than 10,000 ``at-risk'' youth were 
        recruited and mainstreamed into programming at more than 200 
        Clubs.
  <bullet> We established more than 1,200 formalized linkages with 
        courts, police, schools and other referring agencies as part of 
        the program.

    At the end of the program:

  <bullet> 93 percent of youth participating were not re-involved with 
        the juvenile justice system; and
  <bullet> 39 percent of those youth who returned to the mainstream, 
        demonstrated a positive change in academic performance.

            B. THE OBJECTIVE OF THE GANG PREVENTION THROUGH 
                       TARGETED OUTREACH PROGRAM

  <bullet> To mobilize community leaders and Club staff to identify 
        their roles and develop a community strategy and response to 
        juvenile delinquency and gang involvement.
  <bullet> To identify and recruit youth at-risk of gang involvement 
        and to provide them with constructive, positive alternatives 
        using staff outreach and a formal referral network.
  <bullet> To mainstream participants into engaging and relevant Boys & 
        Girls Club programs.
  <bullet> To case manage, individual progress in the following areas: 
        program participation, academic performance, family involvement 
        and contact with the juvenile justice system.

    Using the Gang Prevention through Targeted Outreach model, each 
Boys & Girls Club creates its own program designed specifically to meet 
the needs of their community.
    The focus of this hearing is on ``intervention programs that 
work.'' Throughout the nation there are 10 major intervention programs 
being operated by local Boys & Girls Clubs. These programs are in 
Lawrence, MA; Ventura, CA, San Francisco, CA; El Monte, CA; 
Jacksonville, FL; Dallas, TX; St. Paul, MN; North Little Rock, AR; 
Albany, GA; and Fort Worth, TX.
    For the purposes of this hearing I will highlight two of these 
programs. I can provide additional information on the others upon 
request. Also testifying this afternoon is Mr. Clyde McGuire from the 
Boys & Girls Clubs of South Alabama who is leading the way in promoting 
intervention programs through Boys & Girls Clubs.

          Boys & Girls Clubs of Ventura, CA--Facing the Future

    Facing the Future mandates that youth on probation spend 10 weeks 
at the Boys & Girls Club of Ventura, with the express purpose of 
nurturing and developing social skills in young people that enable them 
to become productive citizens in the community.
Facing the Future
    Thirty-five gang members were enlisted in individual, small and 
large group activities in the positive, caring and safe environment of 
a Boys & Girls Club. Strict rules and expectations are conveyed to the 
participants at an orientation meeting. A specific contract is drawn up 
between the advisor and the gang member, laying out the exact 
activities the youth will be involved in during the program. The 
contract includes regular Boys & Girls Club programs (including 
prevention programs, educational programs, and sports programs) and 
specialty classes involving career exploration, family planning, 
independent living, AIDS education, and self-esteem building.
    The probation department does a debriefing with each of the 35 
participants to assess the success of the program and the readiness of 
these gang members for re-entry into mainstream society.

          Boys & Girls Clubs of St. Paul--Getting Out Program

    Getting Out is a gang intervention/tattoo removal program designed 
to help young people, ages 18 and under, escape from gangs and make 
positive changes in their lives. Establishment of school/career goals 
and development of social skills are the key areas for action in the 
program. The staff at the Boys & Girls Clubs of St. Paul helps gang 
members identify the skills they need to get their life on course and 
refers them to appropriate programs to meet those needs.
Getting Out
    There are six components of Getting Out, designed to help youth 
leave their gang. Community agencies, schools, police, juvenile 
officials, and families are encouraged to make referrals to the 
program.
          1. Referrals--There are four criteria for acceptance: the 
        gang member must be 25 years old or younger, be a documented 
        gang member, be interested in leaving a gang, and have a 
        guardian's consent for those under age 18.
          2. Initial Screening/Volunteer Service--The participant most 
        agree to do 20 hours of community service in order to be 
        accepted into the program.
          3. Goal Setting--Five core areas are outlined: community 
        service, education, job skills, life skills, and development of 
        peer relationships.
          4. Monitoring and Further Goal Setting--The program director 
        constantly monitors the participant, checking on his/her 
        progress and helping them to overcome any obstacles. Police, 
        probation officials, and school teachers are assessed to get 
        their feedback on the participants progress.
          5. Tattoo Removal and Monitoring--This is an important 
        incentive in the program and is therefore put off until the end 
        to encourage completion. Those who want to leave gangs know 
        that the removal of their gang tattoo is critical to their 
        safety outside of gangs and their successful reintegration into 
        society.
          6. Leaving the Gang--The success of the program is assessed 
        by the future activities of program participants. Graduates are 
        often used as spokespersons for the program and to encourage 
        others to leave gangs.

                               Conclusion

    Boys & Girls Clubs of America has a 140 year history of preventing 
and reducing juvenile crime. By giving kids a positive place to go 
after school, on the weekends, and during the summer, we have helped 
keep them away from juvenile delinquency and other damaging habits that 
adversely affect their lives and harm the life of a community.
    Increasingly, Boys & Girls Clubs are seen as the local experts in 
intervention, and are being asked to intervene in the lives of ``at-
risk'', or already delinquent youth, in an effort to bring them back 
into the mainstream. As always, our Clubs are responding.
    With additional resources targeted directly at intervention 
however, we can, and will, respond whenever this committee, and this 
country, need us.
    In closing, I appreciate the opportunity to be here this morning to 
discuss Boys & Girls Clubs of America and the role our Clubs have 
played for the last 140 years.
    Our Clubs will continue to support the work of law enforcement 
officials across the country, helping to limit juvenile delinquency and 
to reduce the number of repeat offenders. In the process we are saving 
kids lives (Louis Harris & Associates Survey).
    Once again thank you for the opportunity to testify this morning. 
If you desire further information for the record, it will be provided 
immediately. Thank you Mr. Chairman.
[GRAPHIC] [TIFF OMITTED] T9953.001

[GRAPHIC] [TIFF OMITTED] T9953.002

    Senator Sessions. I think what we will do now is, if you 
don't mind, we will take a break. When Senator Biden gets back, 
he can maybe continue the meeting, and I will join you as soon 
as I can. It should not be more than 10 minutes. So we will 
recess until we can get this vote over. Thank you so much.
    [The subcommittee stood in recess from 2:32 p.m. to 2:46 
p.m.]
    Senator Sessions. I am sorry to have interrupted us with 
that necessary thing we do around here every now and then, 
vote.
    Mr. Martin, we are delighted to have you here, and I don't 
think I have told you but I am very proud and pleased that they 
named Camp Martin after you and I think that is a very worthy 
thing. It indicates the respect with which you are held in 
south Alabama and the skill and leadership you have 
demonstrated more than a few years on issues that we will be 
talking about today and have been for some time in this Senate.
    We will be glad to hear from you at this time.

                 STATEMENT OF ROBERT J. MARTIN

    Mr. Martin. Thank you, Mr. Chairman. First of all, I would 
just like to say that you have really put a lot of pressure on 
me today because following Robbie Callaway is a tough, tough 
act to have to follow.
    The film really----
    Senator Sessions. Bob, let me interrupt you. Would you 
share with us the length of your involvement and the nature of 
your involvement in juvenile justice issues before you get 
started?
    Mr. Martin. I have been a probation officer since 1973 and 
have been chief probation officer since 1976. This is actually 
the second time I have come before this committee to testify. I 
was invited by Senator Denton to testify back in 1981. So in 
terms of length, I have been around for a while.
    Senator Sessions. And you have visited and studied other 
centers all over the Nation, I know.
    Mr. Martin. Yes, sir. I have gotten with my staff and tried 
to visit as many centers as we can. Basically, I tell people 
Mr. McGuire and I are thieves. We go in and we look at good 
programs and beg, borrow and steal them, bring them back to 
Mobile and try to modify them.
    Senator Sessions. Very good. I am sorry to interrupt you.
    Mr. Martin. Well, it is all right. I was just going to say 
that the film did a much better job of saying what I was going 
to say, and as a consequence I am going to limit myself to just 
a few points.
    One that I think is especially important is to note that 
the boot camp was started with an OJJDP grant in 1992, and that 
that grant for $1.9 million spent over a 30-month period has 
been the seed money and the catalyst for the programs you have 
seen on the film. Those programs now spend $3.5 million each 
year, so it has been a real valuable thing to have invested 
that OJJDP money.
    Senator Sessions. Both the State funding and the Boys and 
Girls Clubs?
    Mr. Martin. Yes, sir. With the Federal money, we started 
the boot camp. It impressed everyone so much that the State 
stepped in and went into partnership with the city and county. 
So it is 75 percent State money, 25 percent local money.
    The other issue or point I want to make is that the 
guidelines for the grant call for a public/private partnership. 
Had it not, this partnership and what you have seen on that 
film very well may have not come about.
    The other thing I would like to point is that there is a 
national connection for the juvenile court as a result of being 
partners with Boys and Girls Clubs. Boys and Girls Clubs has a 
national office. Mr. Callaway was very helpful in getting that 
grant for us. He has provided us with assistance of all kinds, 
and even today at lunch we were sitting there just casually 
talking with him and he gave me a perspective that I hadn't had 
before, and that is out in California they are beginning to 
locate Boys and Girls Clubs in detention centers.
    Well, as you know, we have the State's largest detention 
center, and the idea of having a Boys and Girls Club come in 
and do the programming for the center really makes a lot of 
sense. It prepares those kids to go back to their homes and 
their local Boys and Girls Clubs. So I am going to be going to 
California and probably doing some more stealing.
    I will wrap it up by saying this, that back in the 1980's 
we had four very large caseloads, somewhere in the area of 100 
cases per caseload. And the largest and toughest----
    Senator Sessions. A hundred cases per probation officer?
    Mr. Martin. I am sorry, per probation officer, that is 
correct. And the toughest cases were in four housing board 
projects. We actually had a probation officer assigned to each 
project. During the 1980's, Boys and Girls Clubs were located 
in each of those four housing projects. I, in turn, based a 
probation officer in each of the four clubs so that there are 
probation officers working with the Boys and Girls Clubs 
personnel with the delinquents in that area.
    In 1994, we completely closed that program down and I 
reassigned the probation officers to other parts of the county 
because in all four housing projects there wasn't a single 
caseload. I couldn't justify having one PO assigned there. So 
partnering has its advantages, and I am just here to say that I 
am glad OJJDP required us to go into one.
    Senator Sessions. Very good.
    [The prepared statement of Mr. Martin follows:]

                 Prepared Statement of Robert J. Martin

    Thank you Mr. Chairman. This is the second time I have had the 
privilege of appearing before a Senate Judiciary Subcommittee on behalf 
of America's at-risk youth. My first appearance occurred more than 18 
years ago. Senator Jeremiah Denton asked me to testify concerning what 
was then a growing tide of juvenile violence. Little did we imagine 
then, the terrible extremes this problem would reach in our society. 
But I come before you today, confident that we have learned from hard 
and bitter lessons about the kinds of programs and approaches which are 
successful and beginning to reverse this social plague. In Mobile, in 
Alabama and through out the nation the rates of crime and juvenile 
delinquency are receding.
    It is not one agency or one discipline or one kind or set of 
programs that have begun to reverse this thirty year or longer trend. 
Rather it is a combination of successful programs; community policing, 
alternative schools, welfare reform, mentoring, successful prevention 
programs like the Boy and Girls Clubs and intervention programs like 
boot-camps and wilderness experiences. Many of these efforts have only 
been successful because our communities have learned the value of 
forming partnerships between key agencies, and between the public and 
private sectors. These partnerships have multiplied the effectiveness 
of services and better utilized resources and funding. Last year I saw 
an excellent example of how community partnerships can lead to very 
successful outcomes during a tour of the Boston project. There a 
community came together and drastically reduced its murder rate. Police 
social workers, juvenile court officers, Boys and Girls Clubs, city 
recreation and even city maintenance staff all worked together and 
redefined themselves and their city.
    This afternoon, Mr. McGuire and I want to briefly tell you about 
our experience with successful partnerships and about a few of the 
programs that have proven beneficial in remediating juvenile 
delinquency in our part of America. In 1990 we put together a proposal 
for a juvenile boot camp project which was submitted to the Office of 
Juvenile Justice & Delinquency Prevention. This proposal received 1.9 
million dollars in O.J.J.D.P. funding over a period of 30 months. It 
proved so successful that it lead to city, county, and state funding 
for a comprehensive array of programs which today annually spend more 
than 3.5 million dollars for community based treatment for juvenile 
delinquents. This comprehensive system includes family based treatment, 
parent education, family counseling, alternative education, 
restitution, job readiness training and graduated sanctions. All of 
these treatment programs are a direct result of the O.J.J.D.P. seed 
money for a juvenile boot camp and the benefits derived from a public/
private partnership formed by the Boys & Girls Clubs of South Alabama, 
the Mobile County Strickland Juvenile Justice Center, the University of 
South Alabama, and a wide array of social service agencies both public 
and private. To name only a few these include the public school system, 
the mental health center, the Boy Scouts, local churches, and several 
private businesses. This partnership, founded in response to the 
guidelines issued in the O.J.J.D.P. announcement of the prototype 
juvenile boot camp initiative in 1990, has lead to a comprehensive 
community based juvenile justice system in Mobile, Alabama, which I 
believe offers a model for our nation. The Strickland Juvenile Justice 
Center and the Boys & Girls Clubs of South Alabama have formed a 
partnership. These public and private entities use the advantages and 
skills each possess. The private sector, the Boys & Girls Clubs of 
South Alabama, brings flexibility of hiring, spending and opens the 
arena of private sector funding for programs which traditionally have 
been publicly funded. At the same time the partnership allows public 
dollars to flow to a private non-profit agency, which allows the 
private non-profit agency to participate in the intervention of 
juvenile delinquency while continuing its vital role in prevention. 
There was a time in this country when the juvenile courts and private 
agencies like the Boys & Girls Clubs viewed themselves as separate 
agencies with very different missions. One was strictly prevention 
while the other's mission was purely intervention. Today in Mobile 
County, Alabama, the Strickland Juvenile Justice Center and the Boys & 
Girls Clubs of South Alabama recognize our common mission which is to 
assist children who are most at-risk to becoming a burden on their 
community to grow into productive and self-sufficient members of a law-
abiding society.

    Senator Sessions. Clyde McGuire, it is good to see you, and 
I know your club is extraordinary there, on a per-capita basis 
one of the most successful in the country in size of membership 
and size of the town. I know Bernie Malcove is one of those 
citizen leaders that Joe talks about that gives heart and soul 
to this effort, and together you have done a great job.
    So we would be glad to hear from you at this time.

                   STATEMENT OF CLYDE McGUIRE

    Mr. McGuire. Thank you, Senator, and good afternoon. The 
film picked up many of the things that I was going to talk 
about, but if I can touch upon some key points, in the past 7 
years since we began implementation of this program, we have 
learned the following.
    Number one, it is cost-effective, and it is cost-effective 
primarily because of the partnership.
    Senator Sessions. Now, when you say this program, is that 
the Environmental Youth Corps and the GROWTH program?
    Mr. McGuire. Yes, sir, that is correct. When I say program, 
I am speaking about our Camp Martin program for adjudicated 
boys; our GROWTH program for adjudicated girls; our wilderness 
program, which is a specialty program for boys; and, of course, 
our alternative school.
    Senator Sessions. When you say adjudicated, that means that 
the young person has been found guilty or delinquent in the 
juvenile court, is that correct, and there has been a final 
adjudication that they are responsible for an improper 
activity?
    Mr. McGuire. Yes, sir, that is correct.
    In those 7 years, we have learned the following. Our 
program is cost-effective because of the partnership. Second, 
recidivism has been reduced among our young men that 
participate in the program. And, third, these young people that 
have gone out and committed a crime after they are released 
from our program typically commit a less serious crime. So it 
is going in the right direction.
    I think why we are successful is because of several key 
points. Number one, we do offer a comprehensive program, as 
depicted in the video--the education program, the assessment, 
the goal-setting, the conflict resolution. According to the 
latest FBI crime report, 51 percent of all young people across 
America that commit homicide, it is a result of argument. As a 
result of that, we implemented a strong anger management 
program. We mix kids up with good role models. There is a 
strong mentoring program built into what we do.
    The second key point, relationship-building. Senator, we 
spend a great deal of time hiring people that genuinely care 
about young people. That is important to us. We are also big on 
taking a holistic approach in working with the family. When we 
speak of relationships, from the time a young person enters 
into our program, their entire family is involved in a 
parenting program that not only takes place during the 
residential phase that follows them into aftercare.
    The third point of why I think our programs are successful 
is because of an individualized treatment plan. We assess a 
young person when they first come into a program. We identify 
those needs and we try to develop a tailor-made program to 
follow them throughout the duration of the program.
    And, number four, and to me the most important, is 
aftercare. I firmly believe that a lot of agencies can run a 
strong residential program. I am convinced, though, that not 
every agency puts as much emphasis into aftercare as they 
should. In our program, we typically see a young--by the way, 
when I say aftercare, I am speaking about once a young man or 
woman has graduated from our program and have been placed back 
into their community to live.
    In our program, we will see a young man or young lady on a 
Monday through organized athletic programs and mentoring and 
education in our Boys and Girls Clubs. On Tuesday, we are 
seeing them after school. Thursday, we are meeting with the 
entire family through a parenting program, and on Saturday they 
are involved in a community service project.
    Senator Sessions. Do you have people that follow up with 
them individually or just people at the schools who are working 
with them?
    Mr. McGuire. No, sir. We do case management, so every staff 
person in our organization has so many young people to follow 
up throughout.
    Senator Sessions. By name?
    Mr. McGuire. Yes, sir, and know them by their first name 
and their dog by its first name. It is that important to us. So 
the key word in aftercare is intensity.
    I think there are two other reasons why our programs work. 
We believe that no one agency or individual can solve all the 
problems facing young people and their families. I guess, 
realistically, no one can. But, collectively, we pooled our 
resources, our talents, and we are doing more together than if 
we were doing it separately. So we remove turf issues. And in 
that same vein, it doesn't matter who gets the credit for doing 
something good in a person's life. I think what matters is 
meeting the needs of those young people, and we stay focused on 
that goal 24/7.
    As far as needs, I compliment you for your good work. I 
strongly believe that all roads eventually lead back to 
prevention, and historically by and large that is the area that 
we typically have put the fewest resources but certainly have 
the greatest of needs. I strongly support the idea of agencies 
whose thrust is prevention being involved with a justice 
program. We are living proof that it works; it speaks to 
continuity, it speaks to synergy.
    Just in closing, I want you to know that you guys can take 
great comfort in knowing that what you are doing is not only 
changing lives; you are saving lives, and for that I thank you 
for all your support.
    Senator Sessions. Thank you very much.
    [The prepared statement of Mr. McGuire follows:]

                  Prepared Statement of Clyde McGuire

    Thank you Mr. Chairman and good afternoon.
    Its truly an honor to be standing before you today to speak about 
``intervention programs that work''.
    Bob shared with you some of the history of the partnership between 
the court system and our organization, the Boys & Girls Clubs of South 
Alabama. As a result of this partnership hundreds of young men and 
women have been afforded the opportunity to participate in our program, 
and as a result of this opportunity, have been able to turn their lives 
around.
    In the past seven years we have learned this about our program:

          (a) it's cost effective because of the partnership;
          (b) recidivism is reduced;
          (c) those young people that do commit a crime after leaving 
        our program, usually commit a less serious crime in comparison 
        to adjudicated youth at interstate schools.

    Why are we successful, I firmly believe because of some of the 
following points:

  <bullet> A comprehensive program

          We offer education, life skills, mentoring, health and 
        physical education. We teach young people choices and 
        consequences, goal setting and that it is truly a privilege and 
        honor to be afforded an opportunity to turn one's life around 
        and to give back to one's community through public service.

  <bullet> Relationship

          1. We spend a great deal of time hiring individuals that 
        genuinely care about young people.
          2. We teach relationship building. We offer parenting classes 
        not only during the residential phase, but also during the 
        aftercare phase.

  <bullet> Individualized treatment plan

          Every young person that participates in our program is 
        assessed and, based upon one's assessment, a program is 
        developed for that individual. This plan follows them from the 
        residential phase through aftercare.

  <bullet> Aftercare

          I am convinced that many agencies can run good residential 
        programs; however, I'm not sure how many agencies place enough 
        emphasis in aftercare program. Aftercare is what takes place 
        when young people graduate from residential programs and go 
        back home to live. In our aftercare program, we offer 
        education, life skills, athletics. counseling, community 
        service and much more. The keyword in aftercare is intensity! I 
        might add, every program we offer affords a young person; (a) a 
        sense of confidence; (b) a sense of ownership; (c) a sense of 
        belonging, and, (d) a sense of empowerment.

    These youth development strategies are critical and essential in 
youth development programming. Two other reasons why our programs work: 
We realize that no one person or one agency can solve all of the 
problems facing our young people and their families. However, by coming 
together and forming a partnership we can meet more needs collectively, 
rather than standing alone. The moral of the story * * * remove turf 
issues.
    Secondly, we don't worry about what agency or which individual gets 
the credit in creating life-change for young people. What matters are 
those young people. Their needs must always come first.

                                 NEEDS

    We need more funding, especially in the area of aftercare. When 
everything is said and done, all roads lead back to prevention. 
Historically this is the area of greatest need and where there are 
fewer resources.

                                CLOSING

    In closing, I want to express my appreciation to each of you for 
all that you have done and will continue to do for the children and 
their families across America.

    Senator Sessions. Chief Pounsberry.

                STATEMENT OF RICHARD POUNSBERRY

    Mr. Pounsberry. Yes, sir. It is certainly my pleasure to be 
here today, Senator, Senator Biden. I would like to have my 
testimony, if you would, just put into the record, and I would 
just like to make a few points to reiterate what is in that 
testimony.
    First of all, unlike what is portrayed on television or in 
the cinema, where most law enforcement is concerned with 
strictly writing tickets or locking people up, most police 
agencies in the United States today try to achieve a balance of 
crime prevention and law enforcement.
    The majority of the police departments that I have had the 
pleasure of working with over the past 25 years in law 
enforcement are dedicated to the concept of community-oriented 
policing. They were dedicated to community-oriented policing 
before there was even a term ``community-oriented policing.''
    Most police agencies--and I base this on the fact that I 
have had the opportunity to work for three; I started with 
Annapolis City, I worked for Prince George's County, and I am 
now the Chief of Police of Seaford, DE--also look at not just 
traditional policing, but they look at social and environmental 
issues as well, and the social issues are very important. As 
has just been pointed out by Mr. McGuire, you have to create 
that partnership. It doesn't matter who gets the credit as long 
as you are achieving the results.
    We try to use within law enforcement a proactive approach 
to interacting in a positive manner with young adults. How do 
we do that? In the city of Seaford--and I am fortunate to have 
the director of our Boys and Girls Club, John Hollis, with us 
today--we have 2,400 children in our Boys and Girls Club. My 
question to you, sir, is if we didn't have that Boys and Girls 
Club, what would those 2,400 people be doing? What would those 
young people be doing? What alternatives would they have?
    Also, within that Boys and Girls Club, within the city of 
Seaford, we have an Explorers group. The Explorers is a part of 
the Boy Scouts of America. The Explorers is based on the 
concept of a law enforcement theme that allows young people 
between the ages of 14 and 18 years of age to interact with the 
police officers twice a month. In some cases, we satisfy the 
curiosity of the young people with their interest in a law 
enforcement career. But at the same time, what we are doing is 
we are allowing a positive role model to come into the lives of 
these young people.
    I think you will agree that not only has law enforcement 
changed over the last 25 years, but so has society. Twenty-five 
years ago, the family structure was a lot better. I would say 
that today the young people are looking for alternatives. They 
are looking for alternatives in a number of areas. Maybe it is 
Boys and Girls Clubs or Big Brothers, but I think they are 
looking for that positive role model in their lives.
    I am happy to say that my police department does have a 
good partnership with the Western Sussex Boys and Girls Club, 
and that we do work well together to try to meet the needs of 
the young people within that community. And based on that, we 
have seen a dramatic decrease and calls for service for 
juvenile crime, as well as juvenile crime statistics, and I 
would like to see it continue.
    Thank you, sir.
    [The prepared statement of Mr. Pounsberry follows:]

                Prepared Statement of Richard Pounsberry

    Thank you Chairman Sessions, Senator Biden, and members of the 
Senate Judiciary Committee for allowing me the opportunity to testify 
today. My name is Richard Pounsberry. I am the Chief of Police for 
Seaford, Delaware, a town of about 6,000 but one that is growing 
rapidly. I have 25 years of law enforcement experience, and over the 
years I have seen first hand how a balanced approach to fighting crime 
that includes prevention as well enforcing our laws is the best way to 
keep our streets safe. I bring you greetings as well from Mayor Daniel 
Short of Seaford, who had planned to be here as well but was detained 
by town business. I am very pleased to be here on behalf of Seaford, 
however, and express our appreciation for the opportunity to tell you 
our story about juvenile intervention programs that really work, and 
the role of Boys and Girls Clubs in particular in making that happen.
    While it is always an honor and a pleasure to testify before 
Congress, today is especially rewarding for me for two reasons. The 
first is, of course, that Senator Biden has been a long-time friend of 
law enforcement as well as my home state's Senator. I am especially 
proud to be here with him. The most important reason, though, is the 
same reason that we are all here--Boys and Girls clubs.
    As a police officer for 25 years, I have been asked repeatedly 
about what resources are needed to improve law enforcement. For a long 
time, we said that we needed more police officers on the streets, more 
patrol cars, more effective guns, bullet proof vests and more advanced 
technology. While these things are important, we have recognized in 
recent years that there is another key factor in our crime fighting 
efforts--stopping crime by getting at the root of the problem.
    Police officers today have embraced community policing and a pro-
active style that doesn't just consider the traditional police 
responses, but also deals with social and educational issues as well, 
and in providing an alternative to the environment of the streets which 
is where most kids get in trouble. It may seem like a cliche, but the 
maxim that ``an ounce of prevention is better than a pound of cure'' 
becomes a reality when you realize that it costs the taxpayers at least 
$35,000 per year in the state of Delaware to incarcerate just one 
prisoner. In comparison, it costs a fraction of that amount to keep the 
doors of a Boys and Girls club open. In terms of where we get the most 
bang for the buck, there is no comparison.
    Boys and Girls clubs have always provided a safe haven for children 
after school, in the evenings, and on weekends. And they are making a 
difference. We are in a time when many parents are divorced or 
otherwise absent. We are in a place where kids--boys and girls alike--
are pressured to use drugs instead of learning how to use a computer or 
play sports.
    We need look no further than the Boys and Girls Club in our town of 
Seaford, Delaware to demonstrate that safe havens for kids really work 
in preventing crime. A three-year study done by the Seaford Police 
Department showed a dramatic drop in juvenile crime since the opening 
of the Western Sussex County Boys and Girls Club just two years ago in 
1997. Here's what we found out:

  <bullet> In 1995, we at the police department had 78 complaints about 
        juvenile crime.
  <bullet> In 1996, that number went up to 88 complaints.
  <bullet> BUT, after the opening of the Boys and Girls Club, we had 
        only 35 juvenile complaints in 1997. That's a 150 percent 
        decrease! We have seen a pattern of declines in arrest numbers 
        and declines in police calls for service since our Boys, and 
        Girls club opened its doors. As some would say, the numbers 
        tell the tale.
  <bullet> And now, over the last year, crimes committed by juveniles 
        have leveled off. The Seaford police department, working with 
        the Delaware State Police, have made a concerted effort to 
        crack down on crimes in our community as part of our ``Safe 
        Streets'' initiative.

    Law enforcement does a great deal to combat juvenile crime, but we 
cannot do it alone--we need help on the prevention end. I realize this 
may sound strange coming from a police chief--but believe me, it is the 
officers on the street who are telling me we need more programs like 
those offered at the Western Sussex club. We need programs such as 
basketball, volleyball, computers and tutoring. Police officers are in 
those clubs as coaches and volunteers. And there are programs like 
TRIAD--where senior citizens partner with police and the community 
using the Boys and Girls club facilities, and interact with the young 
people in the club as well. We have a brand new Explorers group, with a 
group of 14 to 18 year old teenagers who have an interest in scouting 
and law enforcement. Kids are not just at our Boys and Girls club right 
after school--sometimes they are there till nine o'clock at night. In 
short, by using the services of the Boys and Girls club, a more 
preventive approach can be used to effectively interact with young 
adults before they become a part of the criminal justice system.
    I see Boys and Girls clubs as offering our town a place to build a 
real sense of community--similar to the old meeting houses that you 
could find in towns across our country many years ago. Boys and Girls 
clubs afford opportunities to provide more positive role models and 
other options are made available that otherwise would not be present--
such as learning computer skills instead of hanging out on the corner. 
I would encourage this committee, this Congress to stand up and show 
your support. Ask the Boys and Girls clubs what they need and give it 
to them. You've done that in the past, and I hope that will continue in 
the future.
    If you want to stop crime--stop it before it starts. And the best 
way I know to stop it is to use an organization--the Boys and Girls 
Clubs--that has the proven track record to do it.
    Thank you. I would be happy to take any questions you have.

    Senator Sessions. Chief, I will just ask you while you are 
mentioning that, is there any doubt in your mind that a young 
person who is actively involved in a Boys and Girls Club will 
be less likely to be involved in criminal activity?
    Mr. Pounsberry. Well, sir, I am glad you asked that 
question because I haven't seen Robbie Callaway, I guess, in 
about 28 years, and Robbie and I grew up in the same area and 
we were both members of the Boys and Girls Club. So I guess we 
are living testimony of what Boys and Girls Clubs can do for 
you.
    Senator Sessions. Pretty good.
    Senator Biden. I don't know about Robbie. I think you are 
OK, Chief, but I don't know. [Laughter.]
    Senator Sessions. Robbie, what you are doing in Mobile with 
the GROWTH program, the Youth Corps, and so forth, that is 
unusual, I guess somewhat different. I am impressed that you 
are allowing that kind of freedom and innovation. Is that one 
of your policies, to encourage these kinds of things?
    Mr. Callaway. Very much so, Senator. As you know, we are 
serving over 3 million kids and our primary role is prevention, 
but we have found is that our people are so good at it that 
there are other kids that we can bring back. Every kid we can 
bring back out of the system, every kid we can keep from taking 
another step into the system is a kid that is not going to go 
to prison.
    He may be Chief Pounsberry to you, Senator Biden, but he is 
Ricky Pounsberry to me. As Ricky can tell you, some of the kids 
that grew up in our neighborhood didn't have a Boys and Girls 
Club. Some of them went into detention, some of them went into 
prison, some of them died. The Boys and Girls Clubs can reach 
some of the kids that went into those detention centers. If 
even our club back then could have reached out and brought them 
back into the community, they wouldn't have gone into prison 
and they wouldn't have died.
    Yes, we encourage it. As a matter of fact, Clyde is on my 
government relations advisory committee and he is helping 
encourage that with other clubs. Every club in the country 
can't do it; they can't do what Clyde has done. But 10 percent 
of the clubs could do what Clyde is doing if we had the right 
support.
    Senator Sessions. Well, I think that is right and I don't 
think there is any bright line between pure prevention and pure 
intervention and that sort of thing. When you get 93 percent of 
young people that have already been in trouble with the law not 
getting in trouble again because they are involved in your 
program, then that is prevention and intervention. That is good 
all around.
    Bob, you mentioned the benefits of a public/private 
partnership. What are the benefits precisely that you would 
name there? I guess you have got use of resources, efficiency, 
staffing benefits, administrative benefits, cost economies.
    Mr. Martin. Yes, sir.
    Senator Sessions. What are some of the things in your 
experience you obtain from public-private partnerships?
    Mr. Martin. You start off, I think, with flexibility in 
hiring. You have some flexibility in spending. The private 
partner is able to access some private funds that traditionally 
would not have been used in a function like this.
    Senator Sessions. If a State probation officer asked for 
the money, they wouldn't get it as much as Clyde McGuire's 
contribution.
    Mr. Martin. That is absolutely correct. There are funds 
that the public entity can access. We do that, and then there 
are funds that only the private sector can access. And as I 
mentioned earlier, being associated with an organization that 
is a national organization, it helps to give a wider 
perspective for us.
    The other thing, I think, is from a public relations 
standpoint it is excellent. I think everybody understands that 
if you are utilizing for your aftercare program existing Boys 
and Girls Clubs rather than trying to go out and rent a 
facility or buy a facility, that is an efficient use of funds.
    There are many resources that Boys and Girls Clubs have. 
One of the chief ones, I think, is in Mobile we have an 
outstanding board of directors. We pick people from all 
professions and all walks of life, so that whatever need we 
have there will be somebody with that knowledge or that set of 
skills. Simply put, if we had tried to run a county boot camp 
years ago, we would not have had access to all those people.
    Senator Sessions. Bob, one matter that I have discussed 
here a good bit--and I have not asked you about it, I don't 
think, per se, but do you find that drug use is an accelerator 
to criminal behavior by young people, and do you believe that 
drug testing of young offenders is worthwhile to determine 
whether or not they are using drugs or have a drug problem?
    Mr. Martin. Yes to those questions. First of all, I would 
estimate that probably 80 percent of the kids we are working 
with have been involved with drugs. Maybe it is higher than 
that.
    Senator Sessions. Clyde, you are nodding. Do you agree with 
those numbers?
    Mr. McGuire. Yes, sir, I concur.
    Senator Sessions. That is higher than I thought, actually, 
and I knew it was high.
    Mr. Martin. Well, I am not talking about somebody who is 
addicted and needs to go into some sort of treatment program, 
but I am talking about kids who get out and use cigarettes; 
they consume alcohol, they smoke marijuana, and some of them 
start to use cocaine products.
    There is a smaller number--I am not sure what it would be, 
but a smaller number that are addicted and we have to send into 
treatment. One of the things that we are particularly concerned 
about are those kids who are coming out of these expensive 
residential programs, into an aftercare program. Yes, we have 
to----
    Senator Sessions. Expensive residential treatment programs?
    Mr. Martin. That is correct.
    Senator Sessions. Paid for by their families or the 
government?
    Mr. Martin. It is paid for by the government. State, county 
and city funds go into our boot camp, our girls treatment 
program.
    But the point I was going to make is that one of the 
greatest dangers to a failure in aftercare is the involvement 
of drugs and alcohol. An awful lot of kids will be doing fine, 
but if they get back around their old buddies and start using 
drugs, we very often lose them.
    Senator Sessions. Well, shouldn't regular drug testing of 
those in the aftercare program be made a part of----
    Mr. Martin. Yes, sir, and we do that. Regular drug testing 
is what we try to do to discourage the youngster from getting 
back.
    Senator Sessions. And it is not so much to see if you can 
put them in jail. It is determine what they are doing in those 
free hours.
    Mr. Martin. That is exactly it, Senator. Aftercare is not a 
movement to try to get you back into the boot camp. It is an 
effort to try to make you successful. And if we can take your 
temperature and see you have got an illness and give you some 
medicine for it, we will do that. And if we can drug-screen you 
and see you have been messing around with some drugs and you 
need some counseling or better supervision, then we will do 
that.
    Senator Sessions. Clyde, on the aftercare, you mentioned, I 
think, the intensity of aftercare. What is your number one 
philosophy, I guess, on aftercare? How do you maintain that 
intensity level and what are you trying to achieve when you are 
trying to take a young person who has been in trouble with the 
law and you want to make sure they don't get back into trouble?
    Mr. McGuire. Senator, I think our number one objective is 
to keep the young person on the right road. And we have learned 
this: when a young man or young lady graduates from a 
residential program, the first 60 days are critical. We need to 
create a safety net to ensure that they are making the right 
decisions and being involved in the right things in their life.
    And one way that we do it is keeping them involved in 
something positive and a sense of intensity through Boys and 
Girls Clubs, in their school, setting them up for success. Many 
kids who are under-achievers in the juvenile penal system have 
been told that they don't have a lot of value. In our program, 
we tell them that they have tremendous value, and we also work 
from the philosophy that every child counts. So to answer your 
question, we like intensity because we want to have the pulse 
beat of what is going on in those young people's lives.
    Senator Sessions. Thank you.
    Senator Biden.
    Senator Biden. Thank you very much. Gentlemen, I think it 
has been said before, and we should say it again, programs are 
important, money to fund them are important, partnerships are 
important. But when it gets right down to it, what you said, 
Mr. McGuire, about the quality of the people you have 
performing the functions is a gigantic piece of this.
    And I wasn't being solicitous earlier when I talked about 
the engagement of the community and getting people of all 
political stripes and people of standing in the community 
involved, getting them invested. My experience from watching in 
Delaware is when Mr. Allen comes up with the money to match the 
Federal Government's piece to build a Boys and Girls Club in 
western Sussex County, the Seaford area, he brings with him an 
awful lot of other people who care and want to make sure it 
succeeds. He is a man who is not used to failing. He did it out 
of the goodness of his heart, but he wants to see it work.
    And so I want to pursue two lines with all of you, and I 
know, as the old joke goes, Robbie has forgotten more about 
this than most of us are going to learn. One of the things that 
I am a little concerned about is that I am so convinced that 
prevention and intensive aftercare is a formula that could 
dramatically reduce crime in America, beyond what we have 
already done.
    And keep in mind, I am the guy who put the bill in for 
100,000 cops. I am the guy who keeps coming for more money for 
cops, you know, so I am not suggesting we don't need cops. But 
what I am suggesting is that it seems to me the results are so 
patently obvious as to what can happen that I would like to 
figure out a way--and I don't want to get Robbie into this, but 
a way we can expand this beyond Boys and Girls Clubs.
    I mean, there are 3 million boys and girls. Well, we are 
talking about 19 million latchkey kids out there, by the way, 
19 million of them. So as good as Boys and Girls Clubs are 
doing, we have got 15 million kids with keys around their necks 
leaving school at 2:30 p.m., or whatever time school gets out, 
and essentially no supervision until mom or dad, or both, come 
home because they both have to work or they are a single-parent 
family.
    So I want to ask you a few things about the ingredients, 
what is the recipe that makes this work so well, and to see 
whether or not there are other opportunities. For example, I 
suspect the Chief may be aware, but the New Castle County 
Police Department, our largest county, went out with their own 
money, no Federal money, and they raised money and they built, 
in the middle of the toughest neighborhood in the county, a 
beautiful facility that is a Police Athletic League facility.
    They have duplicated or replicated or imitated a number of 
the formulas you use, Robbie. They have got real serious people 
in there; they are really involved. They have got after-school 
programs, they have got tutoring programs, and one of the 
advantages they have is they have got an awful lot of cops who 
volunteer.
    I might note parenthetically, Mr. Chairman, if you look at 
police forces across this Nation today, if you took all the men 
and women in America who are mentors, who are little league 
baseball coaches, who volunteer in after-school programs, who 
are engaged in the Boy Scouts and the Girl Scouts, and so on, I 
will lay you eight to five there is no profession that remotely 
approaches the percentage of participants as cops.
    So here are my questions. Number one, if, Mr. McGuire, you 
could convince your county probation officer--is it a county 
government where you all are? I mean, is it Montgomery County?
    Senator Sessions. Mobile.
    Senator Biden. Mobile. Excuse me.
    If Mobile County were willing to--and maybe they are--spend 
the resources and have the number of people around as probation 
officers who followed up like your folks follow up--you see 
that little guy sitting behind the chief? He is the man that 
runs that Boys and Girls Club down our way, and he has got men 
and women working for him who do what I suspect your guys do, 
Clyde.
    They pick up the phone when Charlie doesn't show up and 
say, Charlie, where are you, how are you? You know, come on in, 
and by the way, is your dog Spot still with you, right? I mean, 
practically, is that how it works?
    Mr. McGuire. Yes, sir, that is correct.
    Senator Biden. One of the things we find is that a study 
that the committee had done about 6 years ago--I can't vouch 
for what the numbers are now, but if you go to any school of 
social work in America, from the great universities to the not 
so great universities, and they tell you about all their--there 
is a great bank of data, as you well know, about prevention, 
and they will tell you that a probation officer or a case 
officer, if they get above 30 people, it is effectively 
ineffective.
    What happens is it becomes counterproductive because what 
they do is, in trying to reach 100, they don't reach anybody. I 
mean, they would really be better off percentage-wise to just 
pick 30 of their 100 and stay with the 30. They would end up 
with better numbers. Yet, during the decades of the 1970's and 
1980's, we lost so many probation officers, so many case 
workers in the United States of America that in the average 
State, a probation officer had a caseload of 237 people.
    Now, one of the things I want to get around to here is how 
critical--and I would like each of you to speak on this if you 
have an opinion--how critical is the intense--that is, 2, 3, 4 
times a week--follow-up with a child, a teenager, a young adult 
from the moment they are released from whatever institutional 
circumstance they find themselves in? They are put out on the 
street. How important is the intensity of the follow-up?
    Mr. Martin. I will respond to that, if I may. It is 
critical to aftercare. You have to have intensive contact, 
supervision, counseling. Another element that we have built in 
is we work with the parents the entire time that the child is 
in the program. When the child goes into aftercare, the family 
counseling continues, and contact with the parents. We feel 
very strongly that if we can empower the parents, then we have 
the most powerful aftercare person in the whole system.
    The other thing I would like to respond to is we have been 
doing an analysis of our aftercare program. We think we are 
doing a very good job, but we also think we could do a much 
better job. One of the things that we have identified is that 
you really have a hard time taking a kid in an intense, secure 
treatment environment and then releasing him one day and 
saying, you are going straight home.
    We want step-down group homes, and we are in the process 
right now of beginning to gather information about the best 
kinds of group homes and how all of that would be tied 
together. We are also looking at the fact that there are, I am 
sorry to say, a large number of kids in this country where, no 
matter what we do with their parents, they are not going to be 
suitable parents.
    And the youngsters we are dealing with have a history of 
violence and drug abuse and the kinds of things that foster 
parents are not going to be available for them. And as a 
practical matter, long-term group homes is the only way to save 
those children.
    Mr. Callaway. I think the follow-up is very important, and 
what you are going to find in a good Boys and Girls Club--it is 
not, you know, Robbie Callaway sitting up here talking about 
the money. It is the people who work in that club. I have Steve 
Salem with me here. He doesn't work in a club, but Steve Salem 
makes sure that every dime you give us is spent appropriately 
and that the people in the club are spending it appropriately.
    Chief Pounsberry--I won't call you Ricky up here again--
Chief Pounsberry can talk about the police officer that was at 
the Boys Club when we were growing up, Dutch Noon, a volunteer. 
Dutch Noon believed in Robbie Callaway. I had good parents. I 
was more fortunate, but Dutch Noon was a metropolitan police 
officer who worked in that Boys Club. He believed in me. That 
was important.
    So those kids coming out of the system, if somebody 
believes in them and somebody is saying to them, you are going 
to make it, instead of what they are hearing all the time, you 
are not going to make it, a lot of those kids will make it.
    Denzel Washington at my breakfast last week told this 
story, and some of you heard it. He was interviewed afterwards 
and a smart reporter, as they sometimes can be, came up and 
stuck a microphone in his face and said, yes, you are here from 
Hollywood, you are a celebrity, you are just doing this as a 
cause. And he said, let me tell you something. He said, I grew 
up, I had six friends. The only difference in me and the six 
was that I was a member of the Boys Club. Do you want me to 
tell you about the other six? Two of them are dead and four of 
them are serving 115 years combined. Follow-up is important.
    Senator Biden. What I am trying to get at--and you guys are 
touching it, but most of the programs we have for kids in our 
State, whatever the program is, are programs which either take 
them through, as Mr. Martin said, a program and then drop them 
back in the neighborhood, drop them back at home. The home may 
not work, but essentially they say, OK, we have done our job; 
we had you for 6 months at the Ferris School. That is our 
largest reform school; we used to call them reform schools. We 
had you in a drug rehab program, or we had you in a boot camp, 
and now it is done and you are out.
    And my experience in watching this is that they almost 
always fail because essentially you have changed nothing else 
in the environment of the kid, or even the young adult. By the 
way, I would argue this goes for 25-year-old criminals who are 
recidivists. You drop them right back where they were, and the 
hardest part to get across to the public because it kind of 
violates, in my opinion, our puritan work ethic--well, you 
know, we spent the money on you, we gave you a chance, you have 
got it now, you are clean, or you finished the boot camp and 
you came out good and now we are done, you are OK. And it is 
really hard, I am finding, at home to say, no, no, it is just 
beginning. All you did was sort of take them back to ground 
zero.
    I mean, you are a cop. I know you work with the Boys and 
Girls Clubs, but how important is it that there be something 
that they constantly have someone calling them, in effect?
    Mr. Pounsberry. Senator, I would say it is as important, if 
not more important than the prevention end, and the reason why 
I say that is--and you will see it in my written testimony--in 
the State of Delaware I recently had the opportunity to hear a 
warden speak. It costs $35,000 a year to incarcerate a prisoner 
in the State of Delaware--$35,000 a year.
    Senator Biden. A good Ivy League education.
    Mr. Pounsberry. Take a small percentage of that and use it 
for prevention to keep that person from going into an 
environment with those negative role models that are going to 
lead to recidivism. You take that same person that goes in 
there for whatever period of time and it is going to have a 
negative influence in their life unless they go to something 
that is more proactive, similar to the boot camp.
    With the boot camp atmosphere, they are getting the 
discipline, they are getting the structure that they may not 
have had, but while they are in the boot camp, the question 
that I have to ask is, is there any rehabilitation training 
that is going on at the same time? Are they being trained while 
they are in that boot camp atmosphere for when they leave 
incarceration so that they can walk into a job that is going to 
make a difference in their life, or do they just simply go 
through the boot camp structure and then go back to that 
environment that Senator Biden was talking about earlier?
    I think what they need is maybe to take a follow-up program 
that is going to be more important. As I have said, take that 
follow-up program like boot camp, give them some type of formal 
training so that when they do come out of incarceration, they 
have got an opportunity to do some good.
    Senator Biden. I must tell you very bluntly, two campaigns 
ago, because I am the guy that came up with the boot camp idea 
for the crime, I got the living devil beat out of me in a 
campaign because I was for boot camps. And the statistics 
showed up to that point that boot camps had no impact on 
recidivism. And they don't, unless it has the kind of 
imaginative piece that you have put in it, which isn't merely 
take a kid into boot camp, but you combine the boot camp with 
these other pieces.
    Absent that, all a boot camp is is a cheaper way to 
incarcerate a kid or an adult. In this case, in the crime bill 
it is adults that the boot camps are--but, again, I hope we 
can--and maybe the Senator and I can be the nucleus of getting 
our colleagues to focus on this notion that even if we provide 
the programs, there has got to be a way--I happen to agree with 
the drug testing--there has got to be a way that there is some 
tactile relationship, you know, going out and touching that kid 
or that person on a regular basis for a while, at least, until 
they sort of get in their routine, get themselves in a 
circumstance.
    The second question I want to raise with you is I have done 
an awful lot of Boys and Girls Clubs events across the country, 
and I am very proud of that, very proud of that. And in my 
State, there has been a burgeoning of new clubs in our little 
State, and I am proud of that. But I always kind of worry when 
they assemble all these bright-faced kids sitting in front of 
me for me to talk to them, and they range in age from 
kindergarten kids to kids who are hanging around after high 
school. I mean, it goes the gamut.
    And I always feel a little funny when I talk to them about 
preventing crime. I am actually not talking to them; I am 
talking to the news media that is there. And, in truth, the 
vast majority of those 3 million kids are not kids in trouble. 
They are good kids.
    I mean, if you look at the statistics, only 6 percent of 
all the kids in America are violent kids. We have got kind of 
three categories of kids. You have got 6 percent of violent 
kids. You have got yourself a much bigger percentage in the at-
risk category that is probably a total of anywhere, depending 
on who you talk to, 2 to 3 million kids nationwide. And you 
have got the rest of the kids who aren't at risk, but the Boys 
and Girls Clubs are providing an incredibly positive 
environment for them.
    Now, here is my question, and you may not be able to answer 
it because I don't know whether there is any answer. My gut 
tells me--and I am not being smart when I say this--that a Boys 
and Girls Club that has a Robbie Callaway, who had good parents 
but was looking for alternatives of places to go, things to do, 
also attracts Denzel Washington's five friends, some of them, 
and attracts the kid who has been through trouble and out and 
is back in. The chemistry of having good kids hanging with kids 
at risk and who are, in the minds of the public, the bad kids 
helps the bad kids and the at-risk kids.
    Can you talk to me a little bit about the chemistry? And 
maybe I am dead wrong; maybe it doesn't matter. But the thing 
that impresses me about Boys and Girls Clubs is you have kids 
who are honor students, who come in and they are in a minority, 
they are in any community, and they are honor students. And 
then you have got the kid who is coming in who is the at-risk 
kid--truancy, does a little dope on the side, experiments, got 
in a little bit of trouble, but hasn't crossed the line and 
committed a crime yet. And then you have the kid in that same 
Boys and Girls Club who has gotten arrested for selling drugs 
or has gotten arrested for hot-wiring a car, gotten arrested 
for stealing a radio.
    And they are all together in that room, and the minority of 
them are the kids who stole the radio. Talk to me about that 
for a minute, if you can.
    Mr. Callaway. Well, even with the programs like this, I can 
take you in any Boys and Girls Club in the country, and anybody 
in the room, and I will defy you to tell me which one is the 
delinquent kid, or was the delinquent kid, and which one isn't.
    We do try to put them all together. You know, if a kid is 
in a specialized targeted outreach program I mentioned, you 
can't go in there and say that kid is identified as targeted 
outreach, he is going to be over here, or she is going to be 
over here. The positive influences will win out when you do it.
    I am saying that there are 14 million at-risk kids, is what 
the Federal Government used--14 million at-risk kids. We are 
only serving three million of them. I am not going to rest 
until we get a lot more, but those at-risk kids are served 
better by being with other kids in the Boys and Girls Clubs. 
And you can't tell the difference when you go in there, unlike 
when you put that kid into a detention center and if you don't 
give them that aftercare, they are going to come out tougher.
    Senator Biden. The last question I have--and I apologize 
for going so long, Mr. Chairman, but this is a hell of a panel. 
You don't have to answer it now; if you have time, think about 
it and maybe you can submit it in writing. I am not looking for 
any treatise. It can be just bullet points, no big deal.
    Are there other programs beyond Boys and Girls Clubs--and I 
assure you, Robbie, we are not going to give up on Boys and 
Girls Clubs, so this is not a zero sum game. This is not a game 
where, you know, if we find other programs that are good, we 
don't fund Boys and Girls Clubs. And I mean that sincerely.
    But are there other programs, initiatives that you are 
personally familiar with, any of you, that you think have the 
basic ingredients to be able to do the kinds of things that you 
all are doing that we should be paying attention to? And what 
are the ingredients that make your operation work the best?
    I saw the film. I am trying to figure a way to distill in a 
relatively short sound bite to our colleagues what cops, social 
workers, volunteers, Boys and Girls Clubs boards of directors 
folks--what they can all agree on are the two, three, four 
pieces of the puzzle that make this work. If we can do that, 
then we get over the argument.
    I mean, the boss and I, we fight sometimes about how to use 
prevention money or what form to put it in, whether it is a 
block grant or whether we put it in direct programs. I mean, we 
are in the same hymnal. We are sometimes not on the same page. 
A lot of guys up here aren't in the same hymnal. I mean, they 
aren't singing from the same hymnal, let alone on the same 
page.
    So it is a helpful thing for people whom we respect to tell 
us, beyond your own operation, what are some of the others that 
you have seen that you think make sense so we can start to work 
on a formula here.
    Mr. Martin. Well, just in the area of boot camps, there is 
a boot camp up in upstate New York, Sergeant Henry Johnson, and 
we heard the director of that program speak a few years ago and 
we were so impressed that we flew up and went out in the 
Catskill Mountains and spent a couple of days looking at his 
program. When I came home, I said to the staff we have a good 
program, but they have a better one. And we have completely 
redone our program and even had Colonel Corning, who is the 
director, down to Mobile to look at our program and to advise 
with us.
    I noticed in the paper this morning that Mayor Williams of 
Washington, DC, is creating a safe passages program where he is 
trying to bring together all of the social service agencies in 
coordination, I think, with the police department, trying to 
identify and work with, in a coordinated way, at-risk youth. I 
think that is excellent. It sounds a lot like the Boston 
project.
    In Mobile, AL, our police department has obtained an OJJDP 
grant and they have actually hired social workers who are based 
in the precincts, and the social workers are the ones that go 
and try to work out some of these domestic issues. The social 
worker is the person who is called when a child appears to have 
been abused or neglected. I think that program has a lot of 
potential.
    When you ask what are the pieces to the puzzle, I would say 
that number one is coordination. Mr. McGuire and I 10 years ago 
were working with a lot of similar kids and families, but there 
was not very much coordination. And as a result of this 
partnership, we now work with the Boy Scouts, the Girl Scouts, 
the local mental health center. We work with our welfare 
department. The police have the social workers in the 
precincts. We now have juvenile probation officers who have 
also been assigned to those precincts.
    Senator Biden. I am taking too much of your time, but I 
appreciate that. You know, you have--I was going to say you 
have no idea, but you do have an idea. We have come so far. The 
idea that 20 years ago I would be sitting here and a cop is 
talking about having social workers in his precinct would have 
been laughable. It would have been the George McGovern--well, I 
shouldn't say that. It would have been close to laughable.
    But I always say this, and people don't believe me when I 
say it. Because I have such a great relationship with the cops, 
they think I am doing it, but this whole prevention piece of 
the crime bill was the cops' idea. They sat down at my table, 
and it was the cops. It wasn't the social workers; it was cops 
who had the idea.
    And the more we get that across to people, the more people 
realize this is--people are reluctant to waste--I mean, they 
are so accustomed to us wasting money and they are so 
accustomed to programs that waste money that the presumption is 
you go into a program and it means waste. I mean, program 
equates with waste, when you say the word ``program.''
    Anyway, Mr. Chairman, I appreciate your doing this. I look 
forward to continuing to work with you. Unfortunately, I am the 
ranking member--not unfortunately--well, it is unfortunate I am 
ranking. I don't like being ranking; I like being Chairman of 
the Foreign Relations Committee. And there is a hearing on 
Kosovo that started at 3:00 p.m., and I asked Bob Dole if he 
would come and testify and he is up there and I should go up 
and make an appearance.
    But before I leave, I want you to meet John Hollis.
    John, stand up a second.
    This guy is emblematic of the people Robbie has all across 
America who make the chief's job easier because he, day to day, 
runs these volunteers, coordinates them, and makes them work.
    John, I just want to publicly acknowledge you and thank you 
for what you do. Fortunately for the Boys and Girls Clubs, you 
are not the exception, but you are incredible. Thanks.
    Anyway, I thank you, Mr. Chairman, and I apologize to the 
panel. It is first-rate.
    Senator Sessions. I know you have a lot of things that have 
been pressing on you this week, and I thank you for finding the 
time to participate in this program. You are correct, we are 
not very far apart. We can fuss pretty good, you and I, but we 
are really, when it gets down to it, not very far apart.
    Bob, I think before the Senator leaves, you modeled 
something after the Boston Night Light program and got some 
good results from that, you told me yesterday, actually 
stunning results. Would you share that with us?
    Mr. Martin. Yes, sir. Our city was very interested in 
trying to model after the Boston project and got together a 
group of us that went up there. One of the things was having 
the probation officers ride with the police officers to check 
curfews. And like a lot of communities, our detention center at 
that time was overflowing, and as a consequence we really 
didn't have anything much we could do if a kid was out after 
curfew. That probably was a less serious offense than the kid 
who was already occupying the detention bed.
    The city and county got together and significantly 
increased the number of detention beds to quite a few of them. 
During the period when we were running the curfew enforcement 
program without detention beds, we probably had about a 20-
percent compliance. I used to tell people that probably the 20 
percent who were home, you know, they didn't have anything to 
do that night so they were watching TV.
    After we got the detention beds, compliance starting going 
up, and compliance today is almost 100 percent.
    Senator Biden. Compliance coupled with enforcement?
    Mr. Martin. That is correct, combined with enforcement.
    Now, the thing that I think is so very significant, though, 
is that not only did the number of offenses start going down, 
but we have never filled up the new detention center. We, in 
fact, have fewer kids in detention than we did before we built 
them.
    Senator Sessions. They commit less serious crime if they 
are home when they are supposed to be. Isn't that right?
    Mr. Martin. That is absolutely correct.
    Senator Sessions. Less likely to get into some serious 
trouble. Then you have got to lock them up.
    Mr. Martin. That is correct. If I may, I would just like to 
respond to one thing Senator Biden said about having come so 
far. As I said earlier, I appeared before this committee in 
1981 about violent juvenile offenders, serious juvenile 
offenders. All the comments that I can remember and all the 
questions I can remember had to do with how many secure beds, 
how many more police officers--in other words, it was all 
enforcement, punishment. And now we are realizing there has got 
to be a mix; you have got to have both.
    Senator Biden. Well, I know there has been an epiphany, Mr. 
Martin, when a man from Alabama goes to Boston. There is an 
epiphany. I acknowledge it publicly. [Laughter.]
    Senator Biden. And you are going to have a lot of Boston 
guys going to Alabama because they are going to be seeing the 
way you guys are running your operation.
    Mr. Martin. We are glad to have them.
    Senator Sessions. There is a little truth in both, and I am 
very impressed with what they have done in Boston.
    Senator Biden. That is a real altar call, man, that one. I 
mean, that is something different. I never thought I would be 
around to see that. Being from a border State, you know, we are 
kind of conflicted. We don't know whether we are North or 
South, so we get kind of confused occasionally.
    Mr. Martin. It takes us a while, but we are starting to 
learn.
    Senator Biden. No, no. By the way, I didn't mean to imply--
you have a lot to teach, you have a lot to teach. You are 
probably being modest, and I imagine you probably have people 
flying into Mobile now trying to figure out how you guys are 
doing your job. That is the part of this that the more we talk 
about it, the more we engage people, it is a synergy that 
people gain from this.
    And I think, Robbie, that is the single biggest thing about 
Boys and Girls Clubs. They look at you all and they say this 
works. And they say, well, maybe we can't get one, but we can 
do a piece of something. It is good stuff.
    Anyway, thank you, gentlemen. Chief, thanks for coming 
down.
    Mr. Pounsberry. Thank you, Senator.
    Senator Sessions. Well, it is an exciting opportunity. As 
we have had a decline in juvenile crime, it does provide, I 
guess, Chief and Bob, an opportunity to spend more time with 
the ones that are in trouble. Would that be fair to say?
    Mr. Martin. Yes, sir. Our caseloads have gone down, and so 
we can concentrate more on the kids who really need our 
services.
    Senator Sessions. Chief, do you have any program in your 
community-oriented policing which you feel like is allowing 
your police to be more personally engaged with young people who 
may be about to get in trouble or getting in trouble?
    Mr. Pounsberry. Absolutely, sir. The Seaford Police 
Department is not only involved with the Explorers group, but 
we are also involved with the HOST program, mentoring young 
people within the school system. The Explorers, I think, 
probably gives the officers much more satisfaction. These are 
young people that have ambitions to become a police officer or 
have a law enforcement career, and they pretty much can create 
a bond with one another, give them a little bit of guidance, 
give them a little bit of their experience as to what options 
are available to them in law enforcement. It is not just a 
police officer. You have got a number of other options as well, 
and I think that probably is the one that is most satisfying 
for all.
    Senator Sessions. In your communities where you assign 
officers, do they stay there long enough to get to know the 
kids in the neighborhood? Is that one of your goals?
    Mr. Pounsberry. Yes, sir; yes, sir.
    Senator Sessions. I think we lost that, don't you, some 
years ago?
    Mr. Pounsberry. I think we are going back to it, sir.
    Senator Sessions. People in automobiles and they didn't 
know their neighborhood.
    Mr. Pounsberry. Yes, sir. The automobile was quite an 
insulator, but now with the bicycle patrols and the motorcycle 
patrols and the regular meetings, I think we are able to 
interact with the community much more than we have.
    Senator Sessions. Well, on the thing I think sometimes 
Senator Biden and I don't quite hit it together is that I 
believe that if you had not had detention capacity, you could 
not have had a credible curfew enforcement program, which is 
what you basically just said, Bob.
    Mr. Martin. That is absolutely correct.
    Senator Sessions. You have to have a certain critical mass 
of capacity--you have been a probation officer for a long 
time--for those who just will not comply with the rules that 
are necessary, don't you?
    Mr. Martin. Yes. The thing is, is that being put in 
detention is not a death sentence. Detention is unpleasant, it 
is a consequence, but it is part of the teaching process. If 
you never punished a child that you are trying to rear, you are 
probably going to turn out a delinquent. Now, at the same time, 
if the only thing you do is punish that child, you are probably 
also going to turn out a delinquent.
    Senator Sessions. Clyde, how did you have the gumption to 
go outside of your Boys and Girls Club normal programs and get 
involved in these newer, more specialized activities, and do 
you recommend it to other Boys and Girls Clubs that they 
consider this?
    Mr. McGuire. Yes, sir, I do. How I got involved is I 
solicited Bob on our board of directors in the early 1980's. 
For years, we had received some referrals through the court 
system and through the churches and through the schools, and we 
had a pretty good record of working with at-risk youth. So when 
the concept of a boot camp came to Mobile, logically, we were 
the choice to get involved.
    And the more we looked at it, we decided to be the chief 
applicant because it was based upon certain philosophies. You 
know, who needed to hire the staff? Well, all the staff that 
run these programs are ours. What kind of person are we looking 
for in a staff person? We discussed that earlier. Are we 
located in communities where there is a tremendous need, 
communities where many of these kids were coming out of? Yes, 
we were.
    So, for a lot of reasons, we wanted to be involved. And 
quite frankly, I guess it is a non-traditional position, but we 
wanted to do a better job in serving teens. We have about 1,400 
teenagers that are members in our organization and we need to 
be serving more than that. And so for many reasons, our board 
stepped out on faith and we felt like no one else could do this 
except Boys and Girls Clubs. And we had a good partnership with 
the court system; it has only become better.
    And, yes, sir, I would advocate this for other Boys and 
Girls Clubs. As Robbie so well said earlier, this may or may 
not be for every Boys and Girls Club across the country, but I 
would daresay that at least 10 percent of the 1,500 that are 
out there could do an admirable job.
    Senator Sessions. Clyde, you mentioned the GROWTH program, 
which is for girls. We have a lot of boot camps mainly focusing 
on boys, and youth corps camps and that sort of thing. What is 
unique about that program, and do you think that program is 
worth replicating?
    Mr. McGuire. Very much so. In our area, and it is probably 
holding true with national stats, juvenile crime among girls 
has tripled over the last 5 years. And it has not only 
increased, but the crimes that young ladies or young women are 
committing are more serious. And, again, when we analyzed what 
was available, there wasn't much available for these young 
women. For those reasons, we elected to start a GROWTH program.
    It is treatment-based, it is gender-sensitive, and we just 
finished its first year and we are pleased with the results. 
Again, it is a comprehensive approach, and it is actually based 
at Strickland Youth Center on the campus there and we send our 
kids through aftercare, through many of our different Boys and 
Girls Clubs. And we are very pleased.
    Senator Sessions. I have heard it said that girls, if there 
is a good intervention initiative, have lower recidivist rates 
and you have a better chance sometimes of changing their 
criminal activity than you do with boys. Have you heard those 
numbers? Bob, do either one of you want to comment on that?
    Mr. Martin. I made the comment to the late House of 
Representatives Member Mary Zogby not too long ago that we were 
really surprised at how well our girls were doing because the 
girls came in and they were better educated and a little 
brighter than the average boys. And she looked at me and said, 
well, are you surprised?
    But, yes, I think for whatever reason, biology or the way 
our society is organized, girls tend to be a little more 
compliant and a little more socialized. And as a consequence, 
you have to do different types of programming with them. We 
have never had a program before where we had eating disorders, 
but we have to have that in working with juvenile girls.
    Girls are much more concerned with relationships, and so 
where boys enjoy kind of the camaraderie of being part of a 
squad and going out and doing all the physical things, the 
girls need sometimes to talk and to discuss issues and 
relationships and that sort of thing. So it requires a 
different approach, and that was the reason why when everybody 
in Mobile was asking were we going to run a boot camp for 
girls, since it was so successful for boys, we said absolutely 
not.
    Traditionally, that is the way things have gone for girls. 
Most of the offenders are boys, so most of the programs are for 
boys; they are designed for boys. And every time somebody comes 
up with a good program, they turn around and say, well, let's 
do one of these for girls. So our approach was to say what are 
the needs of young girls and then start programming from that, 
rather than just putting them in a boys' program.
    Senator Sessions. And you get good results from this?
    Mr. Martin. Yes, sir, so far we have gotten good results. 
One of the figures I was batting around for a while to people 
that impressed me was that out of 65 girls who had completed 
the program, we had not had any new pregnancies. I think 
recently we had one, so that is not 100 percent, but that is 
part of the measure of success of a program like that.
    A very large number of our girls have had a pregnancy. I 
don't know what percentage, but a fair percentage have children 
of their own. Some even have more than one child of their own, 
so we are having to look now at programs that will work with a 
girl when she is pregnant. We are really emphasizing child 
rearing training and things of that sort.
    Senator Sessions. The aftercare concept--I read recently an 
article that confirmed, I guess, what our parents have told us. 
It does make a difference who you associate with, and if you 
are running with kids who are in trouble, kids will normally 
get in trouble. And that is a bigger factor than almost any 
other category in who is going to get in trouble.
    Is that another argument for a good aftercare program? When 
a child gets out of a more confined arrangement or something, 
you have got to watch who they are associating with? Clyde, do 
you want to respond?
    Mr. McGuire. Yes, sir, no question about it, and I wanted 
to comment on--this is leading toward a comment that Senator 
Biden made reference to. When you bring the young kid who is a 
good kid together with a kid who is on the bubble, an at-risk 
young person, and then the kid who is a delinquent into a Boys 
and Girls Club setting, what happens? What is that chemistry?
    Well, we set the table. We are going to ensure that there 
are going to be more kids there. Peer pressure works both ways, 
positively or negatively. We are ensuring that that young man 
who is a delinquent is going to be surrounded with young people 
who have done good things in their lives. So we lead them in 
the direction that we want them to go.
    Senator Sessions. Get them to develop a new set of friends?
    Mr. McGuire. Absolutely.
    Senator Sessions. And have a healthy place to gather.
    Mr. McGuire. And then again intensity comes back into play. 
We don't want that kind of relationship to be one time a week; 
we want it to be continuous. I think that becomes the challenge 
of agencies like Boys and Girls Clubs.
    Senator Sessions. Well, there are a lot of things that we 
can do. Does any one of you have any comments that you would 
like to make before we finish up?
    [No response.]
    Senator Sessions. There is a lot that we can do better. I, 
for one, having come up through the criminal justice system, 
that our juvenile justice systems are for the most part 
overwhelmed with the caseload. We had 3 and 4 times as many bed 
spaces for adults in 1990 as we did in 1980. I think it was a 
significant factor in the decline of crime because we were 
identifying repeat, dangerous offenders better and they are 
serving longer.
    But we didn't compensate in juvenile crime, and I have 
observed--and a lot of people haven't quite grasped this yet--
that juvenile courts more and more are like the one Judge 
Butler runs in Mobile. I have been to Ohio and other States and 
we have seen their programs. They have educational components, 
drug treatment components, mental health treatment components, 
family counseling and family participation, those kinds of 
things. They are indeed focusing on those who are most at-risk 
because they are the ones that are getting arrested, and I 
believe we need to strengthen that.
    As to prevention, in general, we are as a Government now 
spending $4.2 billion, according to GAO, on prevention 
programs, much of that money going through every agency in 
Government. This whole juvenile crime bill probably will come 
in at around $1 billion and some of that will be one-time 
money. So this is big-time money that is being spent.
    What I think causes us to wonder is, is that prevention 
money somehow being worked along to nurture Boys and Girls 
Clubs? Is the mental health treatment money being utilized to 
reach the ones who most need it? Is the drug awareness money 
being effectively gotten to the people who need it? We have got 
program after program after program, several hundreds, that 
deal with it. I think there are 17 mentoring programs in the 
country. There may be some in Mobile or Delaware you don't even 
know exist. If we get it all together in a focused way, we 
could be more effective.
    So I guess what I would say to you is I believe we are 
moving to help deal with the juvenile courts and all the 
related treatment and prevention that goes with that 
effectively. Fox Butterfield, of the New York Times, said that 
many of our juvenile courts are bankrupt. They just cannot 
possibly respond to the challenges that have been placed upon 
them.
    So we can get those courts under control, so you can 
actually get out and maintain your curfew, make sure that your 
drug testing--if they are getting in trouble with drugs, you 
know you have got to do something or they are going to be in 
trouble with other crimes. We need to continue to increase our 
funding for Boys and Girls Clubs. We doubled that over last 
year, I believe, just this year, and I think that reflects this 
Congress' respect for what you are accomplishing.
    And then we can take this other drug prevention money, some 
of which is being well spent, some of which probably is not, 
and make sure we are getting it into the mix effectively. If we 
do that and can keep crime going down and you have more money 
per child getting in trouble for the first time, we can make 
some historic positive accomplishments in reducing crime by 
young people.
    And when you reduce crime by young people, you are going to 
reduce the crime by adults. The sooner we stop them from 
getting involved in a life of crime, the less likely they will 
be involved as an adult and get those big sentences that are 
being thrown out for the third- and fourth-time convicted 
offender.
    So I am excited about what is happening. I think we should 
be positive. There will be in this juvenile crime bill, if we 
can get it through all the controversies and keep the core 
intact, which I think is not being assailed--we just have the 
controversial little things on the edges like guns and all that 
have threatened the bill--if we can do that, we will help get 
this juvenile court system under control, with the resources 
necessary, and I think that will be a significant step in 
reducing juvenile crime and violence.
    Thank you again, Robbie, for your leadership nationally; 
Bob and Clyde, in Alabama; and, Chief, for your leadership 
there in Delaware.
    If there is nothing else, we will stand adjourned.
    [Whereupon, at 3:56 p.m., the subcommittee was aadjourned.]

                                <all>

</pre></body></html>
